                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A13010010                                                                        Page 1 of 1




         NSF OIG received allegations of plagiarism and fabrication in a declined NSF Proposal
         (Proposal). 1 Our review identified significant plagiarism in the Proposal's project description
         and confirmed possible fabrication within the PI's biographical sketch.2

         We contacted the PI and Co-Pis 3 regarding the allegations. The Co-Pis responded individually.
         Each said that the PI was responsible for writing and submitting the Proposal, which he had done
         without their knowledge. The PI did not respond to our letter despite reminders.

         While preparing our investigation referral, we learned and confirmed that the PI had died
         suddenly. Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (11/02)
